PROOF OF SERVICE

I, Harlan Protass, do swear or declare that on this date, July 8, 2020, as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI, dated July 8, 2020, on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above document in the United States mail properly
addressed as detailed below and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, DC 20530-0001
I hereby declare under penalty of perjury that the foregoing is true and
correct.
Dated: New York, NY
July 8, 2020

